No.

20-7577
IN THE

SUPREME COURT OF THE UNITED STATES

“In re PERCYALLEN STUCKS” - PRO PER PETITIONER
n

L4

h.-

Vs.
■ r*f!

TRISHA MEGGS PATE - RESPONDENT(S)

ON WRIT OF CERTIORARI

SUPREME COURT OF FLORIDA
NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE
PETITION FOR WRIT OF CERTIORARI
PERCY ALLEN STUCKS

500 East Adams Street

Jacksonville, Florida, 32202

FILED
MAR 03 2021

QUESTION(S) PRESENTED
1. According to Rule 15.3 of the Supreme Rule Rules; does the opposition
have to respond; once a case the docket placed on the docket?

LIST OF PARTIES
1. Trisha Meggs Pate
Bureau Chief
PL-01, The Capitol
Tallahassee, Florida 32399- 1050

2. Hon. Clerk Scott S. Harris
Office of the Clerk
Washington, D.C. 20543-0001

i

OTHER
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a petition for3SJS§gtS§xg issue to review the

Ps.

judgment below.

APPENDIX A
Appendix

Items

Exhibits

A-l

Order Denying

Exhibit 1

Defendant’s Motion to
Dismiss Pursuant to
Florida Statues 776.032
Justifiable Use Of Force “
STAND YOUR GROUND”
A-2

First District Court of
Appeal, State of Florida
denial of Writ of

l

Exhibit 2

Prohibition
A-3

Supreme Court of Florida

Exhibit 3

Order refusing to accept
jurisdiction
A-4

JSO Supplementary

Exhibit 4

Report, “ Proving no
knowledge of dating”
A-5

JSO Supplementary

Exhibit 5

Report alleged State
Witness John O’neal
A-6

Motion to Compel

Exhibit 6

A-7

Sworn Motion to Dismiss

Exhibit 7

A-8

Charging information

Exhibit 8

from Bernardo de Rionde
A-9

James Small Depositions

Exhibit 9

A-10

Shannon Murphy

Exhibit 10

Depositions
A-ll

Photo of Defendant;
accepting responsibility
for Tampering with
Evidence

2

Exhibit 11

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals at Appendix

to

The petitioner and is
[ ] reported at

; or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished.
The opinion of the United States District court of appeals at Appendix
to the petitioner and is
[ 3 reported at

; or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished
[ ] For cases from state courts
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[

] reported at

[

] has been designated for publication but is not yet reported; or,

; or,

3

[ X ] is unpublished.
The opinion of the

court
t

Appears at Appendix
[

to the petition and is

] reported at
[

; or,

1 has been designated for publication but is not yet reported; or,

[ X ] is unpublished
JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was N/A.
[ ] No petition for hearing was timely filed in my case.
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing appears at
Appendix N/A.
[ ] An extension of time to file the petition for writ of certiorari was granted to and
including
(date) in Application No.

(date) on
A

The jurisdiction of this Court is invoked under 28 U.S.C § 1254 (1)

4

[ ] For cases from state courts:
The date on which the highest state court decided my case was January 29,
2021. A copy of that decision appears at Appendix B.
[ ] A timely petitioner for rehearing was thereafter denied on the following
date: April 12, 2019, a copy of the order denying rehearing appears at Appendix B.
[

] An extension of time to file the petition for a writ of certiorari was granted

to and including

(date) on

(date) in Application No.

A
The Jurisdiction of this court is invoked under 28 U.S.C. § 1257 (a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FLORIDA STATUES
U.S. Constitutional First Amendment Right to say what I want and be
heard,
U.S. Constitutional Sixth Amendment Right to have legal counsel for my
defense
U.S. Constitutional Sixth Amendment Right any revealed contract, statue,
law, rule or information being used against me and I have the right to challenge
jurisdiction of this.

5

U.S. Constitutional 13th Amendment, not to be compelled to perform under
any contract or commercial agreement that I have not entered into Knowingly,
Voluntarily, Intentionally, and with Informed Consent; and that notice is served
upon all cooperate government agents, that I have not, and will not accept the
i

liability associated with the compelled benefit of any unrevealed contract or
commercial agreement.

*

Article VI, Section 2 of the U.S. Constitution, “The Constitution and the laws
of the United States (which shall be pursuance therefore)... Shall be the Supreme
Law of the Land; and the judges in every state shall be bound thereby anything in
the Constitution. I.e. “NO LAW PASSED CONTRARY TO THIS CONSTITUTION
SHALL HAVE ANY VALIDITY (if there is a conflict, the state loses.)”

UCC “Uniform Commercial Code” 1-103.6 “commands the court retain
Common Law rights and remedies, and statues must be in harmony with Common
Law.”
FLORIDA CASE LAWS
Logan v. State, 846 So. 2d. 472 (Fla. 2003); which states, “generally, a
criminal defendant has no right to partially represent himself and, at the time same
time, be partially represented by counsel.”

6

*

STATEMENT OF THE CASE APPENDIX A
The petitioner was denied immunity at his Stand Your Ground Hearing on
March 05, 2018. See Exhibit 1. The petitioner later appealed to the First District
Court of Appeal, State of Florida and was denied the Writ of Prohibition. See
Exhibit 2. Next, the petitioner appealed to the Supreme Court of Florida and the
Supreme Court of Florida declined to accept jurisdiction; over the case. See Exhibit
3.

REASONS FOR GRANTING THE PETITION
The State of Florida could not; in the beginning of the case; prove the
petitioner was dating the alleged victim. See Exhibit 4. Also, the petitioner was
charged with “Second Degree Murder”, based off the story; of State Witness; who
stated; he is a crack addict. See Exhibit 5. The petitioner filed a Motion to Compel
on March 04, 2020 and part of that motion to compel; was the sworn affidavit of
State Witness named John O’Neal. See Exhibit 6.1 was granted the sworn affidavit
of state witness John O’Neal; but I never received it. The petitioner then put in a
motion for Sworn Motion to Dismiss; based on not receiving the sworn affidavit of
State Witness John O’Neal. See Exhibit 7. According the charging information;

7

signed by Bernardo de Rionde; Bar No. 365841; he certified that testimony under
oath had been received from the material witness for the offense. See Exhibit 8. The
Petitioner has been detained for 4 and half years and has never received the sworn
affidavit of State Witness John O’Neal. I’m still waiting! Under the Common Law
Jurisdiction; there has to be a sworn affidavit and or injured party present. The
State of Florida is operating under the fraudulent Admiralty Jurisdiction; which is
defined as the 10 square miles region of the District of Columbia. According to the
Law Merchant Codes, the very law that this contract was under, there are certain
things that constitute a valid contract vs. an invalid contract. President Roosevelt
signed an international money contract in 1933. Our country has been bankrupted
since 1938; the bankers own everything. I deny the validity of the contract that
Roosevelt entered into with the International Bankers. State Witness James Small
was never mentioned once in my discovery. Mr. Small claims the petitioner told him
about the incident. In James Small Depositions, On Page 7, line 25, Mr. Small
stated, Mr. Stucks kept to himself. See Exhibit 9. On page 7, line 25, Mr. Small
stated, he stayed at the Eaverson address 2 years. . But on page 8, lines 3-4, when
Mr. Small was asked what month and year? He replied in the beginning of April
2016. He did not reside at the residence two years. He basically told his first lie. On
Page 8, lines 11-13, Mr. Small states that a couple and Mr. Stucks are the only
ones; who resided at the Eaverson address. On Page 12, lines 1, 8, and 9, Mr. Small
was asked if he has been convicted of a crime. He said yes, but he couldn’t recall all
of them and said sold Crack Cocaine and was arrested for Resisting without

8

Violence. On Page 13, line 2, Mr. Small said the sale of Crack Cocaine was in
January Of 99 and that was the one. On Page 13, line 3, Mr. Small admitted to
doing serious drugs and said there might be other charges too. See Exhibit 9. On
Page 13, line 17, Mr. Small stated he was on Marijuana not Crack Cocaine or
Heroin. On Page 14, lines 8 and 11, Mr. Small was asked if he met any of Mr.
Stucks’ family and his reply was no. Then, he said he thinks; he has an older
brother. Mr. Stucks doesn’t have an older brother. Plus, Mr. Stucks kept to himself;
so he never talked to anyone; according to Page 7, line 20. On Page 14, lines 22-23,
Mr. Small was asked if he had a job, he stated he worked at Waste Pro. On Page
15, line 1-2, Mr. Small stated, he had been working at Waste Pro; since 2006; but he
didn’t know the address; that seems like a fabrication; how can you work
somewhere ten years and not know the address. On Page 15, line 14, Mr. Small
admits he does not know; where Mr. Stucks works. Therefore, if Mr. Stucks didn’t
trust him enough; to tell him where; he worked; why tell him something serious. On
Page 17, lines 1-4, Mr. Small was asked if the alleged victim did drugs; he sad, he
couldn’t tell you that. Where did she get them? On Page 13, line 17, Mr. Small
admitted to smoking Marijuana. On Page 17, line 13, Mr. Small stated the alleged
victim stayed at the Eaverson address. But on Page 8, line 11-13, Mr. Small stated
he, Mr. Stucks, and a couple resided at the Eaverson address. Which story is the
truth? On Page 17, lines 18-22, Mr. Small was asked, did he have any conversations
with Mr. Stucks during this time, he asked, between the murder and now; he said
no. See Exhibit 9. On Page 17, line 23, Mr. Small was asked did he have any

9

conversation outside the text messages. On Page 18, line 5, Mr. Small stated we had
conversations; we lived in the same household. Remember on Page 7, line 20, Mr.
Small stated Mr. Stucks kept to himself. Basically, Mr. Stucks never spoke to no
one. On Page 18, lines 13-18, Mr. Small was asked did Mr. Stucks ever talk about
drugs. Mr. Small said no. The alleged victim had Marijuana, alcohol, and other
drugs in her system. Mr. Small has admitted to Marijuana use in the past. On Page
18, lines 19-23, Mr. Small was asked did he ever call the authorities and said no.
On Page 19, lines 8-25, Mr. Small stated the homicide detectives came to see him.
Mr. Small was in JSO Custody for an unrelated charged and was offered
inducements; for testimony against Mr. Stucks. On Page 21, line 3, the witness
stated, why Mr. Small ain’t go to jail yet? On Page 21, lines 4-12, Assistant State
Attorney Perry stated, I’ll talk to you later. She offered Mr. Small inducements for
his testimony against Mr. Stucks. On Page 21, line 12, Assistant State Attorney
Perry and witness go off the record. Assistant State Attorney Perry clearly has
something to hide. On Page 21, lines 19-23, Mr. Small was asked did he have a
nickname or street name. He stated no sir. On Page 21, lines 22-23, Mr. Small was
asked who “Big Dog” was and he stated did not know. On Page 23, line 14-17, Mr.
Small stated, he talked to Mr. Stucks about what happened to the alleged victim.
On Page 17, line 18-22, Mr. Small stated Mr. Stucks and he had not talked after the
murder; leading up to now. On Page 7, line 20, Mr. Small stated Mr. Stucks kept to
himself. Which story is the truth? On Page 24, lines 21-24, Mr. Small stated Pastor
Walker admitted to seeing the alleged victim on the floor. On Page 25, line 10-22,

10

Mr. Small was asked did Mr. Stucks tell him; that he accidentally shot her in the
head one time. First, Mr. Small stated he’s trying to remember. Then, Mr. Small
said Mr. Stucks got mad; because she wanted to leave. On page 7, line 20, keep in
mind, Mr. Small said, Mr. Stucks kept to himself; why trust anyone now? On Page
26, lines 2-3, Mr. Small Stated Mr. Stucks got mad; because she wanted to see other
people. On Page 17, lines 18-22, Mr. Small stated, Mr. Stucks and he had not talked
since after the murder leading to now. On Page 27, lines 13-16, Mr. Small stated
after Mr. Stucks committed the murder at night; he went across in the field and
started shooting in the air. There were shots fired in the air; if so the police; would
have been called. On Page 29, lines 13-24, Mr. Small stated, Mr. Stucks didn’t like
people; talking to the alleged victim. On Page 31, lines 22-23, Mr. Small was asked
did Mr. Stucks; tell him not to talk to the alleged victim. Mr. Small stated no. On
Page 30, lines 9-21, Mr. Small was asked if he was recently arrested; Mr. Small
stated yes. Mr. Small was offered inducements to testify against Mr. Stucks. Mr.
Small stated, his charges were going to get dropped. On Page 30, line 18, Mr. Small
admitted to being accused with possession of a firearm by a convicted felon. On
Page 30, line 21, Mr. Small admitted to the charges being dismissed. Possession of a
firearm by a convicted felon; carries a 3 year minimum mandatory in Florida. On
page 33, line 24-25, Mr. Small stated, they told Mr. Stucks to leave the premises;
during a clean-up attempt. On page 17, lines 18-22, Mr. Small stated, he and Mr.
Stucks hadn’t talked after the murder leading to now. On Page 33, lines 24-25, Mr.
Small was asked; did he see Mr. Stucks shot in the air? On Page 34, line 3, Mr.

n

Small stated, no. On Page 27, lines 13-16, Mr. Small stated after the murder; Mr.
Stucks went across the street; and started shooting in the air. On page 35, lines 1619, Mr. Small was asked, did you get promised anything or were coerced or been
threatened; for testimony. He stated no. On Page 30, lines 9-21, Mr. Small stated,
his charges were going to be dismissed. He was given inducements by Assistant
State Attorney Erin Perry; which is unethical. In the Stand Your Ground Hearing
on March 05, 2018, Mr. Simmons asked, when did you come forward to the police
one month later after the incident or two months later or 3 months later? Mr. Small
said, “No.” Mr. Simmons asked why you waited until one year later. Mr. Small could
not answer. Mr. Simmons asked, do you have any warrants? Mr. Smalls said, ‘Yes.”
How could you have warrants but come to court in civilian clothes not jail clothing.
In Mrs. Shannon Murphy deposition; on Page 05, lines 22-23; Mrs. Murphy stated
Mr. Stucks worked for about 6 months and he was great. On Page 6, lines 1-2; Mrs.
Murphy stated, Mr. Stucks was always on time. He was extremely courteous. He
showed up for work; when he was asked to. He was pleasant; when he answered the
phone. He was pleasant to people up front. No problems. No problems with him
whatsoever. On Page 6, lines 3-7, Mrs. Murphy was asked did Mr. Stucks have any
i

conversations about his girlfriend or anything like that. Mrs. Murphy said no. They
were unaware of Mr. Stucks having a girlfriend. On Page 8, lines 3-8, Mrs. Murphy
stated, Mr. Stucks did talk about; how there were people; that didn’t want him to
succeed. There were people that were out to get him. Mrs. Hart brought the email to
Mrs. Murphy attention. On Page 8, line 25, and On Page 2-11, Mrs. Murphy was

12

asked did; she remembers anything else about Mr. Stucks and his case. Mrs.
Murphy said, everyone was very shocked when this incident happened. Mr. Stucks
was just extremely polite, extremely conscientious, loved the worked. Mr. Stucks
would always come in and tell me; how much he appreciated being there and how
much he liked the office environment and how nice the people were. So you know, I
just think all of us; as a whole, were really shocked at — when we found all this out.
See Exhibit 10. The petitioner never committed murder; but I’m man enough to
admitted the Tampering with Evidence charge; four days after the incident. See
Exhibit 11.

CONCLUSION

The petition for Writ of Certiorari should be granted.

Respectfully Submitted,

Date: 03-03-2021

13

I declare under penalty of perjury that the forgoing is true and correct.
Executed on March 03, 2021

(Signature)

16

